2 Wall Street
New York, NY 10005
D / 212-238-8659

John M. Griem, Jr.
Partner
griem@clm.com

September 29, 2021
Scott S. Harris, Esq.
Chief Clerk
Supreme Court of the United States
1 First Street N.E.
Washington, D.C. 20543
Re:

Request for extension of time to file response to petition
France.com, Inc. v. The French Republic, et al.
Docket No. 21-448.

Dear Mr. Harris:
This firm is counsel for the Respondents in the above matter.
Pursuant to Rules 15.3 and 30.4, we respectfully request that the time to respond to the
Petition for a Writ of Certiorari be extended 30 days to, and including, November 24, 2021. The
Petition was docketed on September 23, 2021. Consequently, the brief in opposition must
currently be filed by October 25, 2021.
This is Respondents’ first request for an extension of time to file a response. Good
cause exists for the requested extension. Respondents’ response will be reviewed by several
official representatives of respondents The French Republic and Atout France, as well as
multiple attorneys, including a private law firm in France representing Respondents and
attorneys on staff at the clients. Because of this, and the press of other business commitments,
counsel respectfully requests additional time within which to prepare a responsive brief which
properly addresses all of the issues raised in the Petition.
Counsel for Petitioner, Benjamin Barlow, has informed me by email that Petitioner does
not object to this request for an extension. As indicated by the enclosed certificate of service, we
have concurrently served a copy of this letter upon counsel for the Petitioner.

Carter Ledyard & Milburn LLP / clm.com

-2-

Accordingly, Respondents respectfully request that the time for filing a response to the
petition for writ of certiorari be extended by 30 days, to and including November 24, 2021.

Sincerely,

John M. Griem, Jr.
JMG:
cc:

Benjamin Stover Barlow
Dunlap Bennett & Ludwig PLLC
211 Church Street, SE
Leesburg, Virginia 20175
(703) 777-7319

Carter Ledyard & Milburn LLP / clm.com

